U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


        POHNPEI LOCAL OFFICE,
    RURAL DEVELOPMENT PROGRAM,
  U.S. DEPARTMENT OF AGRICULTURE,
  FEDERATED STATES OF MICRONESIA

             REPORT NO. 99-I-953
               SEPTEMBER 1999
                                                                         N-IN-FSM-00 1-99
             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                   Washington, DC. 20240


                                                              SEP 3 0 ;sG

Mr. Francis J. Blanco
State Director
Rural Development Program, Hawaii State Office
U.S. Department of Agriculture
Federal Building, Room 3 11
154 Waianuenue Avenue
Hilo, Hawaii 96720

Subject: Audit Report on the Pohnpei Local Office, Rural Development Program, U.S.
         Department of Agriculture, Federated States of Micronesia (No. 99-I-953)

Dear Mr. Blanco:

This report presents the results of our audit of the Pohnpei Local Office’s administration of
loans provided under the Direct Single Family Housing Program. The objective of the audit
was to determine whether the Pohnpei Local Office complied with U.S. Department of
Agriculture loan and loan administration procedures. The scope of our review included
Direct Single Family Housing Program loans that were outstanding during fiscal years 1997,
1998, and 1999 (through March 3 1, 1999). The audit was requested by the former Charge
d’ Affaires of the United States Embassy in the Republic of the Marshall Islands.

Our audit disclosed that the Pohnpei Local Office of the Rural Development Program was
generally effective in making Direct Single Family Housing Program loans to borrowers who
were eligible to participate in the loan program. However, we found that the Pohnpei Local
Office made loans to 12 borrowers who constructed or repaired houses that were
subsequently used for income-producing purposes and to 2 borrowers who constructed
houses that, in our opinion, exceeded what would be considered “modest design” under
program regulations.

These deficiencies occurred because (1) the Pohnpei Local Office and borrowers believed
that the program regulations did not prohibit borrowers from leasing their houses, (2) the
terms and conditions of the Real Estate Deed of Trust did not specifically require borrowers
to reside in their houses, and (3) the Pohnpei Local Office did not adequately review loan
documents and did not comply with program regulations when it approved &loan to a
borrower who used the loan funds to construct commercial property. Regarding the design
of the two houses, the Pohnpei Local Office (1) did not believe that one of the houses was
unacceptably elaborate in design, (2) did not adequately monitor the construction of one
house, and (3) approved a loan that exceeded the authorized maximum loan limit by $15,000.
As a result, Direct Single Family Housing Program loan funds of $506,690 were not
available for making loans to borrowers who were in need of safe and sanitary housing, three
borrowers improperly received payment subsidies of $8,032, and a loan of $65,000 made to
one borrower may be at risk. In addition, Direct Single Family Housing Program loan funds
of $135,000 were unavailable to other borrowers to construct houses that would have been
in compliance with program requirements.

We made nine recommendations for corrective actions to you, as the State Director, Rural
Development Program, Hawaii State Office. Based on your August 10, 1999, response
(Appendix 2) to the draft report, we consider Recommendations A.3, A.6, B.l, and B.2
resolved and implemented and Recommendation A.4 unresolved and request additional
information for Recommendations A. 1, A.2, AS, and B.3 (see Appendix 3).

Section 5(a) of the Inspector General Act (Public Law 95-452, as amended) requires the
Office of Inspector General to list this report in its semiannual report to the Congress.
Therefore, please provide a response, as required by Public Law 97-357, to this report by
November 5,1999. The response should be addressed to our Pacific Office, 415 Chalan San
Antonio, Baltej Pavilion - Suite 306, Tamuning, Guam 969 11. The response should provide
the information requested in Appendix 3.

We appreciate the assistance provided by the staff and management of the Pohnpei Local
Office during the conduct of our audit.




                                            Earl E. Devaney
                                            Inspector General     u

cc:   Rural Development Manager, Western Pacific, Guam
      Community Development Manager, Pohnpei Local Office
                                               CONTENTS
                                                                                                                 Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .._. 1

        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
        OBJECTIVE AND SCOPE ......................................... 2
        PRIORAUDITCOVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS            AND         RECOMMENDATIONS                         ..................,..,...........           3

        A. USE OF LOAN-FINANCED HOUSES ............................ 3
        B. DESIGN OF LOAN-FINANCED HOUSES ......................... 10

APPENDICES

        1. CLASSIFICATION OF MONETARY AMOUNTS ................... 13
        2. HAWAII STATE OFFICE RESPONSE ........................... 14
        3. STATUS OF AUDIT REPORT RECOMMENDATIONS .............. 19
                                  INTRODUCTION
BACKGROUND

Title V of the Housing Act of 1949, as amended (42 U.S.C. 1471), authorized the Secretary
of the U.S. Department of Agriculture to extend financial assistance, through the Farmers
Home Administration,’ to owners of farms and other real estate in rural areas for “the
construction, improvement, alteration, or repair of dwellings, related facilities, and farm
buildings and to rural residents, including persons who reside in reservations or villages of
Indian tribes, for such purposes and for the purchase of buildings and the purchase of land
constituting a minimum adequate site, in order to enable them to provide dwellings and
related facilities for their own use.” Rural Development is the branch of the U.S. Department
of Agriculture responsible for administering programs offered through the Rural Housing
Service, the Rural Utilities Service, and the Rural Business-Cooperative Service.

The Compact of Free Association of 1985 between the Government of the United States and
the Government of the Federated States of Micronesia (Public Law 99-239) was approved
on January 14,1986. As provided by Section 105(h)(l)(C) of the Compact, the United States
and the Federated States agreed to continue the operation of Rural Development programs
in each of the four states in the Federated States. Each of the Rural Development program
local offices, which are located on the island states of Pohnpei, Chuuk, Kosrae, and Yap, has
a Community Development Manager, who is supervised by the Rural Development Manager
for the Western Pacific, who is located on Guam. The Rural Development Manager reports
to the State Director, who is located in Hilo, Hawaii.

The Pohnpei Local Office is responsible for administering the Direct Single Family Housing
Loan and Grant programs in the State of Pohnpei. The Code of Federal Regulations
(7 CFR 3550.2) states:

     The purpose of the direct [Rural Housing Service] single family housing loan
     programs is to provide low- and very low-income people who live in rural areas
     with an opportunity to own adequate but modest, decent, safe, and sanitary
     dwellings and related facilities. The Section 502 program offers persons who do
     not currently own adequate housing, and who cannot obtain other credit, the
     opportunity to acquire, build, rehabilitate, improve, or relocate dwellings in rural
     areas. The Section 504 program offers loans to very low-income homeowners
     who cannot obtain other credit to repair or rehabilitate their properties.

During fiscal year 1999, the Pohnpei Local Office had 2 locally hired Federal employees (a
Community Development Manager and a Community Development Techrkian) and
18 employees paid by the Federated States of Micronesia National Government and the
Pohnpei State Government. For fiscal year 1999, the National Government appropriated


‘The Federal Agriculture Improvement and Reform Act of 1996 changed the name of the Farmers Home
Administration to Rural Development.

                                               1
$185,000 and the State Government appropriated $147,246 for salaries and other expenses
of the Pohnpei Local Office.

OBJECTIVE AND SCOPE

The objective of the audit was to determine whether the Pohnpei Local Office complied with
U.S. Department of Agriculture loan and loan administration procedures. The scope of our
review included Direct Single Family Housing loans that were outstanding during fiscal years
 1997, 1998, and 1999 (through March 3 1, 1999). To obtain information on the processing
and administration of loans, we interviewed officials at the United States Embassy, the
Pohnpei Local Office, and the Office of the Public Auditor for the Federated States of
Micronesia, all on Pohnpei; selected recipients of Direct Single Family Housing Program
loans, also on Pohnpei; and officials of the Western Pacific Office on Guam. In addition, we
reviewed loan documents maintained at the Pohnpei Local Office and computer listings of
borrower accounts provided by the Rural Development Program’s Centralized Servicing
Center in St. Louis, Missouri, and made site visits to the homes of selected Direct Single
Family Housing loan recipients on Pohnpei.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

As part of the audit, we evaluated the system of internal controls related to loan processing,
construction monitoring, loan collections, and loan servicing. We did not identify any major
control weaknesses in the area of loan collections. However, internal control weaknesses
were identified in the areas of loan processing, construction monitoring, and loan servicing.
These weaknesses are discussed in the Findings and Recommendations section of this report.
Our recommendations, if implemented, should improve the internal controls in these areas.

PRIOR AUDIT COVERAGE

During the past 5 years, the U.S. General Accounting Office and the Office of Inspector
General have not issued any audit reports pertaining to the Pohnpei Local Office,-Rural
Development Program, U.S. Department of Agriculture.
               FINDINGS AND RECOMMENDATIONS

A. USE OF LOAN-FINANCED HOUSES

The Pohnpei Local Office made Rural Development Direct Single Family Housing Program
loans to borrowers who either constructed or repaired houses that were subsequently used
for income-producing purposes. Specifically, we found that 11 borrowers rented out their
houses to generate income and one borrower used loan funds to construct a building that was
partially used for commercial purposes. The Code of Federal Regulations (7 CFR 3550)
states that loan funds are to be used by borrowers for a permanent residence and not for
income-producing purposes. However, officials at the Pohnpei Local Office and borrowers
said that they believed program regulations did not prohibit borrowers from leasing their
houses, Also, the terms and conditions of the Real Estate Deed of Trust did not specifically
require borrowers to reside in their houses. In addition, the Pohnpei Local Office did not
adequately review loan documents and did not comply with program regulations when it
approved a loan to a borrower who used loan funds to construct commercial property. As
a result, Direct Single Family Housing Program loan funds of $506,690 were not available
to eligible borrowers, payment subsidies of $8,032 were improperly received by three
borrowers, and a loan of $65,000 made to one borrower may be at risk (the monetary impacts
of these amounts are presented in Appendix 1).

Residential Rental Properties

As of April 8, 1999, the Pohnpei Local Office had 109 Section 502 loans, with outstanding
principal balances totaling $5.3 million, and 1,691 Section 504 loans, with outstanding
principal balances totaling $6.3 million. Ofthese loans, we judgmentally selected for review
a sample of 20 Section 502 loans, with outstanding principal balances totaling $1.2 million,
and 6 Section 504 loans, with outstanding principal balances totaling $68,421.

We found that 11 of the 26 loan files reviewed (8 Section 502 loans, totaling $461,690, and
3 Section 504 loans, totaling $45,000) were used to construct or repair houses that were used
as residential rental properties rather than as the borrowers’ primary residences. According
to the eight borrowers whom we interviewed, they elected to rent out their houses because
they needed the income that would be generated by the leases. In addition, the borrowers
told us that they did not know that the Direct Single Family Housing Program prohibited
them from leasing their houses. As a result, the 11 borrowers used their houses, which were
financed by loans totaling $506,690, as residential rental properties, and 3 of the
11 borrowers improperly received payment subsidies of $8,032 while collecting rental
income on their houses. For example:                                             I

      - An applicant requested and received a Section 502 loan of $66,000 to construct a
three-bedroom house, with monthly payments of $440. The application showed that the
house would be used as the applicant’s primary residence. The loan closing was held on
October 7, 1997, and the final inspection report stated that construction of the house was
completed on April 14, 1998. The loan file contained an entry in the running case record

                                             3
which showed that, on May 21, 1998, the Pohnpei Local Office became aware that the
borrower was leasing his house. However, the loan file contained no documentation that the
Pohnpei Local Office took any action to obtain a copy of the lease agreement or question the
borrower about leasing his house. At our request, the Pohnpei Local Office’s Community
Development Manager contacted the borrower and obtained a copy of the lease agreement,
which showed that on May 1, 1998, the borrower executed a 1 -year lease with a tenant at a
monthly rental rate of $2,500. Consequently, the borrower realized a profit of $24,720
($2,500 less $440 times 12 months) from the lease of his loan-financed house.

      - Another applicant requested and received a Section 502 loan of $49,990 to construct
a three-bedroom house, with monthly loan payments of $309. The loan closing was held on
February 15, 1994, and based on the final inspection report, construction of the house was
completed on June 28, 1994. Because of the borrower’s low income, during the period of
December 15, 1995, thrdugh July 15, 1998, the borrower received monthly payment
subsidies from the Rural Development Program totaling $4,856, which were used to reduce
the amount of the borrower’s monthly loan payments. Although the loan file did not contain
any indication that the house was rented out, we determined that the borrower had executed
two lease agreements with the same tenant to rent out the house during the period of
December 10, 1995, through December 3 1, 1999, at a monthly rental rate of $500. On
March 12, 1999, we discussed this loan with the Pohnpei Local Office’s Community
Development Technician, who said that the borrower’s payment subsidy was terminated in
July 1998 because the Office learned that the borrower was leasing the house. On March 23,
1999, we interviewed the borrower to obtain copies of the lease agreements and to determine
why the house was leased. The borrower told us that the house was rented because he was
“desperately in need of money.” Consequently, this borrower not only realized $19 1 per
month in rental income above his $309 monthly loan payment but also improperly received
payment subsidies totaling $4,856.

The Pohnpei Local Office’s Community Development Manager stated that he believed that
the regulations did not prohibit borrowers from leasing their houses but agreed that the
regulations prohibited borrowers from receiving payment subsidies while their houses were
being rented out. However, the Code of Federal Regulations (7 CFR 3550.52(e)) states,
“Loan funds may not be used to: . . . Purchase or improve income-producing land or
buildings to be used principally for income-producing purposes.”               The Code
(7 CFR 3550.53) also states, “Applicants must agree to and have the ability to occupy the
dwelling on a permanent basis.” In addition, Section 12 of the Real Estate Deed of Trust’
for the Federated States of Micronesia states that “neither the property nor any portion

‘Because the Constitution of Pohnpei restricts the acquisition of permanent interest in real property to citizens
of Pohnpei and prohibits the sale of laud except as authorized through local statute, the PohnpelLegislature
enacted the Deed of Trust Act of 1987 to provide for the use of Real Estate Deeds of Trust instruments, by
which the Pohnpei Housing Authority would act as trustee for financing agencies of the U.S. Government
with the authority to foreclose on property financed by United States agencies. Additionally, through a 199 1
memorandum of understanding between the Pohnpei Housing Authority and the Farmers Home
Administration (now Rural Development), the Pohnpei Housing Authority agreed to maintain an escrow
account of $500,000 to serve as a reserve account to satisfy the trustee’s obligations to the Farmers Home
Administration in the event of default on a loan by a borrower.

                                                       4
thereof or interest therein shall be leased, assigned, sold, transferred, or encumbered,
voluntarily or otherwise, without the written consent of the Government [of the United
States].” None of the 11 borrowers who subsequently rented out their loan-financed houses
had obtained written approval from the Rural Development Program.

We discussed, with an attorney from the Offrce of General Counsel, U.S. Department of
Agriculture, in San Francisco, California, the issue of borrowers renting out houses that had
been financed through Direct Single Family Housing Program loans. The attorney stated that
Rural Development may wish to consider sending notices to the 11 borrowers to advise them
that they had violated the terms and conditions of their Real Estate Deeds of Trust and
instruct them to terminate the lease agreements with their tenants and move into their houses.
The attorney also suggested that Rural Development, to prevent the program from being used
improperly in the future, may wish to consider (1) modifying the terms and conditions of the
Real Estate Deed of Trust for the Federated States of Micronesia to require that the house
be owner occupied and (2) developing a separate document to be used at loan closing that
would require borrowers to certify that they will reside in their houses unless they obtain
express written consent from Rural Development to lease their houses because of hardship
or other special circumstances. Consequently, we believe that the Rural Development
Program State Office in Hawaii should review the 11 loans and seek assistance, as necessary,
from the Office of General Counsel, U.S. Department of Agriculture, to correct this
deficiency and to prevent the Direct Single Family Housing Program in Pohnpei from being
used improperly in the future.

Commercial Property

We also found that a loan of $65,000 was approved for a borrower who used part of the loan
funds to complete the construction of commercial property. Specifically, on March 6, 1997,
the Pohnpei Local Office received an application for a Section 502 loan of $65,000 from the
Executive Director of the Pohnpei State Housing Authority (the Trustee for Direct Single
Family Housing Program loans on Pohnpei). The floor plans submitted by the Executive
Director showed that he planned to construct a two-story building. However, on May 6,
1997, the engineer at the Pohnpei Local Office who reviewed the floor plans made an entry
in the loan file’s running case record which stated that the floor plans gave the appearance
that the Executive Director intended to use the first floor of the building for commercial
purposes and the second floor for residential purposes. The engineer subsequently visited
the construction site and, on May 13, 1997, made another entry in the running case record
which stated that the Executive Director “is intending for a commercial loan, not a regular
rural housing loan: Therefore, I’m referring [the] case file to supervisory personnel.” On the
same date, the engineer made another entry in the rum-ring case record which stated that after
inspecting the existing one-story structure, he concluded that the structure was Y”finished
and incomplete.” The loan file also showed that the Executive Director subsequently
submitted revised floor plans which, based on our inspection, appeared similar to the first
set of plans submitted to the Pohnpei Local Office except that handwritten captions had been
entered on the plans for the first floor rooms, labeling the rooms as “kitchen,” “dining,”
“living,” and “bedroom.”


                                              5
On March 22, 1999, the Pohnpei Local Office’s former Community Development Specialist
who was involved in the processing of this loan told us that the first floor of the building was
constructed prior to the approval of the loan. However, the Community Development
Specialist told us that the construction “was incomplete on the first floor and it needed
additional work” because the first floor had no electrical wiring, plumbing, doors, or
windows. The Community Development Specialist also said that the existing structure had
cracks in the walls and ceiling which had to be repaired and that support columns needed to
be added on the first floor to ensure that the structure could support the weight of the second
floor. In addition, based on the cost summary prepared for the construction of the building,
we determined that loan funds of at least $25,714 were to be used to complete the
constructior ‘the first floor. Nevertheless, the Pohnpei Local Office accepted the floor
plans and approved a loan of $65,000.

On October 6, 1998, the Housing Authority’s Executive Director wrote a letter to the
Community Development Manager that stated, “Although it [the building] is substantially
completed, there are some things yet to be done to fully complete the building. For that
reason, I have submitted an application for supplemental funding.” Based on the scope of
work provided by the Housing Authority’s Executive Director, some of the additional work
on the building was to include the installation of steel grilles over the windows on the first
floor; the construction of a bar counter on the second floor; and the building of structures on
the roof of the building, including a bathroom and a nahs.3 However, on March 1, 1999, the
Pohnpei Local Office disapproved the Executive Director’s loan request, stating that (1) the
loan funds were to be used for “unauthorized purposes,” (2) the nahs would not meet
typhoon-resistance standards, and (3) the structure was not being used primarily for
residential purposes.

Based on our review of the original floor plans, we agree that the first floor of the building
appeared to be designed for commercial purposes. However, to determine whether the first
floor ofthe building was used for commercial purposes, we visited the property on March 24,
1999, and found that while the second floor of the building was used for residential purposes,
the first floor was being used for commercial office space and a bingo parlor. We also noted
that a nahs, restroom facilities, kitchen sink, barbeque grill, and a decorative water fountain
had been constructed on the roof of the building.

During our review ofthe loan file, we also found that the two-story building was constructed
on land that had been leased from the Pohnpei State Public Lands Authority. The Lease of
Public Lands for Commercial Purposes, which covered the period of January 16, 1973,
through January 17,2023, provided the Housing Authority Executive Director with the use
of 1,178 square meters of land at an annual rental rate of $353. Article 1, Item 2, of the lease
agreement specified that the purpose of the lease was to allow the tenant to provide “office
space, restaurant & bar.” In addition, Article 2 of the lease stated, “The premises are leased
and shall be used, except with the express written consent of the Authority, only for the
commercial purposes specified in item 2. ” However, we found no documentation in the loan


3A “nabs” is a thatched-roof structure used for recreational purposes.

                                                      6
file that the Executive Director had obtained consent from the Lands Authority to also use
the land for residential purposes, for which the second floor of the building was used.

In our opinion, the Pohnpei Local Office should not have approved this loan to the Housing
Authority Executive Director because (1) the existing first floor was to be used for
commercial purposes and needed additional work before the second floor could be
constructed and (2) the lease agreement for the land on which the building was constructed
did not authorize the use of the land for residential purposes. In addition, we believe that
because of the Executive Director’s position with the Pohnpei State Housing Authority, he
should have been aware of the restrictions on the use of funds provided under the Direct
Single Family Housing Program. Further, the entire $65,000 loan could be at risk if the
Lands Authority chooses to cancel the lease and takes possession of the property.
Accordingly, we believe that the Hawaii State Office should review the case file for this loan
to determine what actions should be taken to protect Rural Development’s and the Trustee’s
interests in the property.

Recommendations

We recommend that the State Director, Rural Development Program, Hawaii State Office:

      1. Conduct a review, with the assistance of the Office of General Counsel, U.S.
Department of Agriculture, of the loan files for the 11 borrowers who used Direct Single
Family Housing Program loan funds to construct or repair houses that were used as
residential rental properties rather than as the borrowers’ primary residences and, if
warranted, take appropriate actions based on the results of the review.

      2. Conduct a review of the loan file for the borrower who used Direct Single Family
Housing Program loan funds to construct a structure that was partially used for commercial
purposes to determine what actions should be taken to protect Rural Development’s and the
Trustee’s interests in the property.

      3. Instruct the Community Development Manager, Pohnpei Local Office, to review
all Section 502 and a sample of Section 504 loan files and make site visits to the houses to
determine whether borrowers are using their houses in accordance with program regulations.

       4. Develop written procedures to require that the Pohnpei Local Office emphasizes
to borrowers during the initial loan interview that the purpose of the Direct Single Family
Housing Program is to provide borrowers with a permanent residence and perform periodic
site visits to borrowers’ houses to determine whether the houses are used in accordance with
Program regulations. The written procedures should also provide the Pohnpei-Lpcal Office
with the steps needed for it to follow to prohibit borrowers from using their houses for
commercial purposes.

     5. Request assistance from the Office of General Counsel, U.S. Department of
Agriculture, to modify the terms and conditions of the Real Estate Deed of Trust for the
Federated States of Micronesia to include a requirement that loan-financed houses should be

                                              7
owner occupied and develop a separate document to be used at loan closing that will require
borrowers to certify that they will reside in their houses unless they obtain express written
approval from Rural Development to lease their houses because of hardship or other special
circumstances.

      6. Instruct the Community Development Manager, Pohnpei Local Office, to initiate
collection actions against the three borrowers who improperly received payment subsidies
of $8,032.

Hawaii State Office Response and Office of Inspector General Reply

In the August 10,1999, response (Appendix 2) to the draft report from the Director, Hawaii
State Office, the State Office stated general concurrence with all six ofthe recommendations.
Based on the response, we consider Recommendations 3 and 6 resolved and implemented
and Recommendation 4 unresolved and request additional information for
Recommendations 1, 2, and 5 (see Appendix 3).

In addition, the State Oflice requested that the Office of Inspector General provide a list of
the names of the 12 borrowers who used Direct Single Family Housing Program loan funds
to construct or repair houses that were used for commercial purposes. These names were
provided to the State Office in a letter dated September 3, 1999.

Recommendation 4. Concurrence indicated.

       Hawaii State Office Response. The State Office included in its response a copy of
an August 10, 1999, memorandum from the State Director to the Pohnpei Local Office’s
Community Development Manager that instructed the Community Development Manager
to ensure that an Applicant Orientation Guide (Form RD 3550-23) is signed by each
applicant, the loan originator, and the Community Development Manager and filed in the
loan docket. The State Office stated that a similar form (Exhibit D of FmHA Instruction
1944-A) was used prior to the implementation of Form RD 3550-23, and the State Office
further stated that it believes that “it is not the inadequacy of the existing documents, but the
failure of the Pohnpei Local Office to properly administer the programs and the lack of close
supervision of that office” that caused the deficiencies cited in our audit.

       Office of Inspector General Reply. During our audit, we noted that the Pohnpei
Local Office was using Exhibit D of FmHA Instruction 1944-A, which states that borrowers
must personally occupy their residences if they wish to receive a payment subsidy. In
addition, Form RD 3550-23 requires borrowers to obtain approval from Rural Development
before they lease their houses. Also, the Real Estate Deed of Trust for the Fedaated States
of Micronesia includes restrictions similar to those shown on Form RD 3 5 50-23. However,
as stated in the finding, the borrowers we interviewed stated that (1) they were unaware that
leasing their houses violated program requirements and (2) they leased their houses because
they needed the income. Therefore, the use of these forms did not ensure that borrowers
complied with program requirements. Additionally, the State Director said that the Pohnpei
Local Office did not adequately administer and supervise the program. Therefore, our

                                               8
recommendation was focused on enhancing the existing procedures by requiring the
Community Development Manager, Pohnpei Local Office, to (1) emphasize to borrowers the
requirement that they should live in any property financed by a Rural Development loan,
(2) conduct periodic site visits to ensure that borrowers complied with this requirement, and
(3) take action against borrowers who used their loan financed property for commercial or
other nonresidential purposes. Because the State Office did not specifically address these
aspects of the recommendation, we consider it unresolved.
B, DESIGN OF LOAN-FINANCED HOUSES

The Pohnpei Local Office made Rural Development Direct Single Family Housing Program
loans to borrowers who constructed houses that exceeded what would be considered a
modest house design on the island of Pohnpei and made a loan to one borrower that exceeded
the maximum authorized loan amount by $15,000. The Code of Federal Regulations defines
a “modest dwelling” for Rural Development program loan purposes. However, deficiencies
occurred because (1) the Community Development Manager, Pohnpei Local Office, said that
he did not believe one of the two houses was elaborate in design, (2) the Pohnpei Local
Office did not adequately monitor at least one construction project to ensure that the house
was constructed in accordance with the approved house plans, and (3) the Pohnpei Local
Office did not comply with the Section 502 loan limit established by the Hawaii State Office
when it approved a loan to one borrower. As a result, Direct Single Family Housing Program
loan funds of $135,000 were not available for other borrowers to construct houses under
Program requirements (see Appendix 1).

House Designs

Based on our review of 20 Section 502 loans, with outstanding principal balances totaling
$1.2 million, we found that three loans, totaling $135,000, were made to two borrowers who
used the funds to construct houses that were not, in our opinion, “modest” in design when
compared with the typical residence observed on the island of Pohnpei. The Code of Federal
Regulations (7 CFR 3550.57(a)), in defining a “modest dwelling,” states, “The property must
be one that is considered modest for the area, must not be designed for income providing
purposes, must not have an in-ground pool or have a cost in excess of the section 203(b) limit
of the National Housing Act unless [the Rural Housing Service] authorizes an exception.”

On December 5, 1994, the Pohnpei Local Office received an application for a Section 502
loan of $40,000. In a September 2,1996, written report on his review of the application and
other supporting documents in the loan file, the Community Development Specialist stated,
“The applicant with a family of 04 people are presently living in a concrete dwelling which
is not safe, decent, & sanitary.” The Community Development Specialist’s written report
also stated, “The proposal is to repair [a] concrete residential dwelling of 2,275 square feet
with 3 bedrooms and 2 bathrooms.” The loan closing was held on January 2, 1997, and
based on the final inspection report on the house, construction was completed on April 7,
1997. However, our review of the floor plans in the loan file disclosed that the two-story
house was to have a total of five bedrooms and a kitchen, a dining room, a living room, and
a family room on the first floor and a kitchen, a dining room, and a family room on the
second floor. Because the floor plans gave the appearance that the house design exceeded
what may be considered a modest house design for Pohnpei, we made a site %sit to the
house, Based on the site visit, we concluded that the house was not of modest design as
compared with other residences on the island of Pohnpei.

On April 9, 1996, the Pohnpei Local Office received an application for a Section 502 loan
of $75,000. In an April 10, 1996, written report on their review of the application and other

                                             10
supporting documents in the loan file, Pohnpei Local Office officials stated that the applicant
planned to construct a three-bedroom, three-bathroom house of 2.892 square feet. The
written report also stated, “The design is within the restriction set forth [for] a family of 6
and it appears that it will meet the needs of this applicant.” The loan closing was held on
July 10, 1997, and a contract was executed on the same date for construction of a one-story
house at a cost of $75,000.

According to the construction contract, the construction of the house was to commence by
August 26, 1997, and to be completed by January 26, 1998. However, construction was
delayed because the construction site was located at the top of a steep hill and some of the
heavy equipment needed during construction could not reach the site. Consequently, on
August 8,1997, the borrower submitted to the Pohnpei Local Office another loan application
for an additional loan of $20,000 to construct a 2 15-foot by 16-foot driveway. The loan was
subsequently approved by the Pohnpei Local Office, and on May 20, 1998, the borrower
executed a contract to construct the driveway. Thus, the borrower received a total of $95,000
to construct the house and the driveway.

Our review of the floor plans in the loan file disclosed that the design of the house appeared
to exceed what would be considered a modest house on the island of Pohnpei. In addition,
we noted a May 23, 1998, entry in the running case record which stated that the Pohnpei
Local Office’s engineer visited the construction site and found that the design of the house
had been changed to include the construction of a second floor. However, no action was
taken by the Pohnpei Local Office to stop the construction of the second floor. We also
noted, based on documents in the loan file, that the borrower had requested an additional
loan of $38,000 to complete the construction of the house. However, in an October 29, 1998,
letter to the borrower, the Pohnpei Local Office stated that “we are unable to approve your
application on the basis that your total indebtedness with the agency will exceed the present
authorized loan amount.” As a result of our review of the loan file, on March 16, 1999, we
visited the construction site and found that a two-story house which appeared to be more than
modest was under construction. In our opinion, the Pohnpei Local Office should monitor the
construction of houses financed by Rural Development Program loans and require that
borrowers obtain the approval of the Office before making changes to the approved
construction plans.

In addition to the design ofthis house, the total $95,000 amount of the two loans made to this
borrower exceeded the $80,000 maximum loan amount that had been established by the
Hawaii State Office at the time the borrower applied for the second $20,000 loan in August
1997. The Community Development Manager said that this borrower was allowed to receive
loans in excess of the established limit because he had been told by a State Office official
during a July 1996 training session on Guam that the maximum loan amount wzs going to
be increased by the Hawaii State Office. The Community Development Manager also stated
that he had not received any notice of an increase but had processed the $20,000 loan because
he believed that, if the maximum authorized loan amount had not been increased, the loan
would have been rejected by the Rural Development Program’s automated loan processing
system. However, the Rural Development Manager on Guam told us that the automated loan
processing system did not have an edit check to detect loans in excess of the maximum

                                              11
amount authorized and that the Community Development Manager was responsible for
ensuring that loans were within the allowable limit.

Recommendations

We recommend that the State Director, Rural Development Program, Hawaii State Office:

      1. Instruct the Community Development Manager, Pohnpei Local Office, to ensure
that houses of future loan applicants are of modest design as compared with the typical
residences on Pohnpei.

      2. Instruct the Community Development Manager, Pohnpei Local Office, to ensure
that construction projects are closely monitored and that any changes made by borrowers to
the approved house plans are reviewed and approved in advance by the Pohnpei Local
Office.

     3. Seek legal assistance from the Office of General Counsel, U.S. Department of
Agriculture, to determine the proper actions to take to recover the $15,000 from the borrower
who received loan funds in excess of the allowable maximum.

Hawaii State Office Response and Office of Inspector General Reply

In the August 10, 1999, response (Appendix 2) to the draft report from the Director, Hawaii
State Office, the State Office stated general concurrence with all three recommendations.
Based on the response, we consider Recommendations 1 and 2 resolved and implemented
and request additional information for Recommendation 3 (see Appendix 3).




                                             12
                                                           APPENDIX 1


              CLASSIFICATION OF MONETARY AMOUNTS


                                                Funds To Be Put
                        Finding Areas            To Better Use*

          A. Use of Loan-Financed Houses
               Residential Rental Properties       $5 14,722
               Commercial Property                   65,000

          B. Design of Loan-Financed Houses          135,000

                 Totals                            $714,722




*Amounts represent Federal funds.



                                           13
                                                                                                                           APPENDIX 2
                          United States Department of Agriculture                                                      Rurai%i~~es 1,erZe :RUS)
                          Rural Development                                                                           Rural Housing Service (RHS)
                                                                                                         Rural Busmess - Cooperalive Service (RBS)

                          Hawaii State Office - Western Pacific Region                                                Telephone: (808) 933-8380
                          Room 3 I I Federal Building                                                                       FAX: (808) 933-8327
                          154 Waianuenue Avenue
                          Hilo, Hawaii 96720
FRANCIS J. BLANC0
 State Director
                                                                                                                     August lo,1999


                          Mr. Robert J. Williams, Acting Inspector General
Ted K. Matsuo
                          United States Department of Interior
  Program Director, RUS   Pacific Office
                          415 Chalan San Antonio, Baltej Pavillion - Suite 306
                          Tamuning, Guam 969 11
Thao Khamoui
  Program Director, RHS
                          Dear Mr. Williams:

Steven R. Chapman
                          We appreciate the opportunity to respond to a Draft Audit Report on the Pohnpei Local
  Program Director, RBS   Office (Assignment No. N-IN-FSM-001-99-R). We concur with the general findings
                          and recommendations and would like to share the findings of our independent
                          investigations and immediate administrative actions taken. Enclosed are the following
                          internal memos.

                               December 30,1998, memo received from Pohnpei Community Development
                               Manager (CDM)
                               January 8, 1999, memo to Rural Development Manager (RDM) on maximum loan
                               and loan approval authority.
                               February 11,1999, memo from Pohnpei CDM to RDM.
                               February 19, 1999, memo on revocation of loan approval authority.
                               February 26, 1999, memo from RDM was received, cc: Pohnpei CDM.
                               March 10, 1999, memo on revocation of loan and grant approval authority.
                               March 12,1999, memo from RDM was received.
                               April 15, 1999, memo to Sam W. Currie, Regional OIG.
                               April 28, 1999, memo to Regional OIG.

                          The following are our responses to the recommendation in the draft audit.

                          Recommendation #l : Conduct a review, with the assistance of the Office of General
                          Counsel, U.S. Department of Agriculture, of the loan files for the 11 bqrrowers who
                          used Direct Single Family Housing Program loan funds to construct or repair houses that
                          were used as residential rental properties rather than as the borrowers’ primary
                          residences and take appropriate action based on the results of the review.




                                                     Rural Development is an Equal Opportunity Lender.
                                                       Complaints of discrimination should be sent to:
                                                      Secretary of Agriculture, Washington, DC 20250
                                                                          14
                                                                                        APPENDIX 2
                                                                                        Page 2 of 5



Mr. Robert J. Williams, Acting Inspector General
United States Department of Interior
Page 2



Response: Please identify the 11 borrowers for our record and see paragraph 1 of the enclosed
August 10, 1999, memo to the Community Development Manager in Pohnpei.

Recommendation #2: Conduct a review of the loan file for the borrower who used Direct Single
Family Housing Program loan funds to construct a structure that was partially used for commercial
purposes to determine what actions should be taken to protect Rural Development’s and the
Trustee’s interest in the property.

Response: Please identify the borrower for our record and see paragraph 1 of the enclosed August
10, 1999, memo to the Community Development Manager in Pohnpei.

Recommendation #3 : Instruct the Community Development Manager, Pohnpei Local Office, to
review all Section 502 and a sample of Section 504 loan files and make site visits to the houses to
determine whether borrowers are using their houses in accordance with program regulations.

Response: See paragraph 2 of the enclosed August 10, 1999, memo to the Community Development
Manager in Pohnpei.

Recommendation #4: Develop written procedures to require that the Pohnpei Local Office
emphasizes to borrowers during the initial loan interview that the purpose of the Direct Single
Family Housing Program is to provide borrowers with a permanent residence and performs periodic
site visits to borrowers’ houses to determine whether the houses are used in accordance with program
regulations, The written procedures should also provide the Pohnpei Local Office with the necessary
steps to follow to prohibit borrowers from using their houses for commercial purposes.

Response: See paragraph 3 of the enclosed August 10, 1999, memo to the Community Development
Manager in Pohnpei.

Recommendation #5: Request assistance from the Office of General Counsel, U.S. Department of
Agriculture, to modify the terms and conditions of the Real Estate Deed of Trust for the Federated
States of Micronesia to include a requirement that loan-financed houses should be owner occupied
and develop a separate document to be used at loan closing that will require borrowers to certify that
they will reside in their houses unless they obtain express written approval from Rural Development
to lease their houses because of hardship or other special circumstances.          &

Response: We will consult our Office of General Counsel as recommended. However, we believe it
is not the inadequacy of the existing documents, but the failure of the Pohnpei Local Office to
properly administer the programs and the lack of close supervision of that office. We also believe




                                                15
                                                                                      APPENDIX 2
                                                                                      Page 3 of 5


Mr. Robert J. Williams, Acting Inspector General
United States Department of Interior
Page 3



the enclosed Form RD 3550-23, Applicant Orientation Guide, already meets recommendation (2) on
page 9 of the draft audit. It includes the following:

l   No loan can be closed until Agency staff have reviewed this information with the applicants, and
    ail applicants have completed Part II. Certifications.
l   Borrowers must personally occupy the property, and must inform the Agency whenever an adult
    member of the household changes or obtains employment, when there is change in family status,
    or when nonemployment income increases by more than 10 percent.
l   A borrower must obtain approval from the Agency before taking actions that may affect the
    security value of the property. Key actions that require approval from the Agency include:
    subordination of the loan, mineral leases, partial release of security, lease of security property,
    and assumption of indebtedness.
l   Unauthorized assistance includes any loan, payment subsidy, deferred mortgage payment, or
    grant for which there was no regulatory authorization or for which the recipient was not eligible.
    Account adjustments may be made to correct for the receipt of unauthorized assistance and any
    subsidy granted improperly will be repaid by the borrower. Borrowers who receive unauthorized
    assistance based on false information provided intentionally to obtain benefits are at risk of
    losing their loan, debarment from participation in federal benefit programs, and civil and
    criminal prosecution.

Older loans should have on file a similar document, Exhibit D of FmHA Instruction 1944-A,
enclosed.

The draft audit correctly cited on page 8 sections 7 CFR 3550.52(e) on income producing properties
and 7 CFR 3550.52 on occupancy.

Recommendation #6: Instruct the Community Development Manager, Pohnpei Local Office, to
initiate collection actions the three borrowers who improperly received payment subsidies of $8,032.

Response: See paragraph 4 of the enclosed August 10, 1999, memo to the Community Development
Manager in Pohnpei.

Recommendation #7: Instruct the Community Development Manager, Pohnpei LgEal Office, to
ensure that houses of future loan applicants are of modest design as compared with the typical
residences of Pohnpei.

Response: See paragraph 5 of the enclosed August 10, 1999, memo to the Community Development
Manager in Pohnpei.



                                                16
                                                                                   APPENDIX 2
                                                                                   Page 4 of 5


Mr. Robert J. Williams, Acting Inspector General
United States Department of Interior
Page 4



Recommendation #8: Instruct the Community Development Manager, Pohnpei Local Office, to
ensure that construction projects are closely monitored and that any changes made by borrowers to
the approved house plans are reviewed and approved in advance by the Pohnpei Local Office.

Response: Also see paragraph 5 of the enclosed August 10, 1999, memo to the Community
Development Manager in Pohnpei.

Recommendation #9: Seek legal assistance from the Office of General Counsel, U.S. Department of
Agriculture, to determine the proper actions to take to recover the $15,000 from the borrower who
received loan funds in excess of the allowable maximum.

Response: We will consult our Office of General Counsel as recommended.

Sincerely,



               m_
FRANCIS J. BLANC0
State Director

Enclosures

cc:    Nigel Parish, Rural Development Manager, Mongmong (w/o enclosures)
       Steve Peyton, Administrative Director (w/o enclosures)
       Thao Khamoui, SFWCF Program Director (w/o enclosures)


[NOTE - THE AUGUST 10, 1999, MEMORANDUM FROM THE STATE DIRECTOR, RURAL DEVELOPMENT,
U.S. DEPARTMENT OF AGRICULTURE, IS THE ONLY ENCLOSURE INCLUDED BY THE OFFICE OF
INSPECTOR GENERAL.]




                                             17
       .                                                                                                                    Rura, APPENDIX 2
                           United States Department of Agriculture




Ei
                           Kural Development                                                                                                 5 of 5
-iJSD                                                                                                                       R u r a l Page
                                                                                                              Rural Business - Cot

=Y                         Hawaii State Office - Western Pacific Region                                                     Telephone: (808) 933-8380
                           Room 3 11 Federal Building                                                                             FAX: (808) 933-8327
                           1.54 Waianuenue Avenue
                           Hilo, Hawaii 96720
FRANCIS .I.BLANC0
 State Director                                                                                                           August 10, 1999

                           SUBJECT:            Draft Audit Report

                                   TO:         Community Development Manager
                                               Pohnpei, FSM
Ted K. Matsuo
  Program Director, RUS
                           The following are recommended by the Draft Audit Report (Assignment No. N-IN-FSM-OOl-
                           99-R):

ThaoKhamoui                1. Please immediately submit to the Rural Development Manager (RDM) the 11 borrowers
 Program Director,   RHS       who used loan funds to construct or repair houses that were used as residential rental
                              properties, and one borrower who used some loan funds for commercial purposes as
                               identified in this subject audit for his review and recommendations to me for appropriate
                              actions in accordance with Chapter 7 of HB-2-3550.
Steven R. Chapman
  Program Director, RBS
                           2. As recommended in the draft audit, you are to review ALL Section 502 and ALL
                              SECURED Section 504 loan files and make site visits to the houses to determine whether
                              borrowers are using their houses in accordance with program regulations. A priority must
                              be given to this review and submit your report to the RDM by no later than September 9,
                               1999, for his further review and recommendations to me by no later than October 9, 1999.
                              The RDM may also make site visits as necessary.
                           3. During the July I996 training session in Guam, you were informed of the required form RD
                              3550-23, Applicant Orientation Guide, which must be signed by applicants and loan
                              originator. You must personally sign Form RD 3550-23 and make sure that it is tiled in
                              each Section 502 loan docket.
                           4. You need to immediately initiate, with assistance from the RDM as necessary, collection
                              actions against the three borrowers who improperly received payment subsidies of $8,032 as
                              reported in the draft audit.
                           5. You must ensure that houses of future loan applicants are of modest design as compared
                              with the typical residences of Pohnpei. You must also ensure that construction projects are
                              closely monitored and that any changes made by borrowers to the approved house plans are
                              reviewed and approved in advance by the Pohnpei Local Office.
                           6. Further, please be advised that my memo to you dated March 10, 1999, regarding
                              “Revocation of Loan and Grant Approval” still remains in full force and effect until further
                              notice.

                           If you have any questions, please contact the Area/State Office as appropriate.




                           FRANCIS J. BLANC0
                           State Director

                           cc:      RDM, Mongmong, GU



                                                    Rural Development is an Equal       Opportunity Lender.
                                                         Complaints of discrimination should be sent to;
                                                        Secretary of Agriculture, Washington, DC 20250

                                                                           1%
                                                                              APPENDIX 3
                                                                                Page 1 of 2


       STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
       Reference            Status                        Action Required

         A.1             Management          Provide a target date for completing the
                         concurs;            review of the 11 borrowers who used
                         additional          Direct Single Family Housing Program
                         information         loan funds to construct or repair houses
                         needed.             that were used as residential rental
                                             properties. When completed, a copy of
                                             the review results and the actions taken
                                             should be provided to our office.

         A.2             Management          Provide a target date for completing the
                         concurs;            review of the borrower who used Direct
                         additional          Single Family Housing Program loan
                         information         funds to construct a structure that was
                         needed.             partially used for commercial purposes.
                                             When completed, a copy of the results of
                                             the review and the actions taken to protect
                                             Rural Development’s and the Trustee’s
                                             interests in the property should be
                                             provided to our office.

         A.3             Implemented.        No further action is required.

         A.4             Unresolved.         Reconsider the response to the
                                             recommendation. If concurrence is
                                             indicated, provide an action plan that
                                             includes the target date and the title of the
                                             official responsible for implementation.
                                             If nonconcurrence is indicated, provide
                                             reasons for the nonconcurrence.




                                        19
                                                                           APPENDIX 3
                                                                             Page 2 of 2

Finding/Recommendation
       Reference            Status                       Action Required

         A.5             Management          Provide a target date and the title of the
                         concurs;            official responsible for requesting
                         additional          assistance from the Office of General
                         information         Counsel to modify the terms and conditions
                         needed.             of the Real Estate Deed of Trust for the
                                             Federated States of Micronesia and for
                                             developing a separate document to be used
                                             at loan closing that will require borrowers
                                             to certify that they will reside in their
                                             houses unless they obtain written approval
                                             from Rural Development to lease their
                                             houses because of hardship or other special
                                             circumstances. When completed, a copy of
                                             the modified Real Estate Deed of Trust and
                                             the separate document should be provided
                                             to our office.

         A.6             Implemented.    No further action is required.

      B.l and B.2        Implemented.    No further action is required.

         B.3             Management          Provide a target date and the title of the
                         concurs;            official responsible for requesting
                         additional          assistance from the Office of General
                         information         Counsel to determine the proper actions to
                         needed.             take to recover the $15,000 from the
                                             borrower who received loan funds in excess
                                             of the allowable maximum amount. When
                                             completed, a copy of the recommendations
                                             made by the Office of General Counsel
                                             should be provided to our office.




                                        20
                   ILLEGAL OR WASTEFUL ACTIVITIES
                       SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR GENERAL

                              Internet/E-Mail Address

                                     www.oig.doi.gov


                      Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800424-5081 or
Mail Stop 5341                                         (202) 208-5300
Washington, D .C. 20240

                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       l-800-354-0996


                     Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
suite 303
&lington, Virginia 22203

                                     Pacific Region

U, S. Department of the Interior                      (671) 647-6060
Office of Inspector General
Pacific Office
415 chalan San Antonio
Baltej Pavilion, Suite 306
Tarnuning, Guam 96911
    :      Toll Free Numbers:
     :-     l-800-424-5081             =
    -.:     T’DD l-800-354-0996        E
      :                                ::
      :    F?I’S/Commercial Numbers:
             (202) 208-5300
    2-                                 E
      I     TDD (202) 208-2420         :


.   :
    :
    :
       I
       :
    :
       :
    :.
      ..
     :a
    f
    :
    .

    -?rr
